<8 Jf,

S'

>
I.
t

)
1

\

a.

/
y

V

1

'»i

\

t

\

V

*r
\

<

I

i

\
A

/

i

r

■XT

i'

*
4

<

l

“A
v

T

FILED

NOT FOR PUBLICATION

JUL23 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
JEROME CEASAR ALVERTO,
Plainti ff-Appellant,

No.

U.S. COURT OF APPEALS

19-35796

D.C. No. 3:19-cv-05053-RBL

v.
MEMORANDUM*
BRYAN DWAIN CLINE,
Defendant-Appellee,

Appeal from the United States District Court
for the Western District of Washington
Ronald B. Leighton, District Judge, Presiding
Submitted July 14, 2020**
Before:

CANBY, FRIEDLAND, and R. NELSON, Circuit Judges.

Jerome Ceasar Alverto appeals pro se from the district court’s judgment
dismissing his 42 U.S.C. § 1983 action alleging excessive force. We have
jurisdiction under 28 U.S.C. § 1291. We review de novo a dismissal under Fed. R.
Civ. P. 12(b)(6) on the basis of the applicable statute of limitations. Cholla Ready

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Mix, Inc. v. Civish, 382 F.3d 969, 973 (9th Cir. 2004). We affirm.
The district court properly dismissed Alverto’s action as time-barred because
Alverto filed his action after the applicable statute of limitations had run and failed
to allege circumstances that justified equitable tolling. See Wash. Rev. Code
§ 4.16.080(2) (three-year statute of limitations for personal injury claims); see also
Wallace v. Kato, 549 U.S. 384, 387, 394 (2007) (federal courts apply the forum
state’s personal injury statute of limitations in § 1983 claims; “[w]e have generally
referred to state law for tolling rules, just as we have for the length of statutes of
limitations”); In re Hoisington, 993 P.2d 296, 300 (Wash. Ct. App. 2000)
(“Appropriate circumstances for equitable tolling include bad faith, deception, or
false assurances by the defendant, and the exercise of diligence by the plaintiff.”
(citations and internal quotation marks omitted)).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
Alverto’s motion to correct the record (Docket Entry No. 17) is granted.
The Clerk is directed to strike Mark Fry, Timothy Donlin, Paul Pastor, Kathleen
Proctor, and Brian Neal Wasankari as defendants.
AFFIRMED.

2

19-35796

i

T

■i

¥.
T
i

/
t

\ES

\

i

“T

>
7

\

T

>
i

x

•4

T

i

T.

-i

\

DOC MCC Inmate Federal
From:
Sent:
To:
Subject:

ECF@wawd.uscourts.gov
/
Tuesday, August 27, 2019 1:45 PM
ECF@wawd.uscourts.gov
Activity in Case 3:19-cv-05053-RBL Alverto v. Cline et al Order on Report and
Recommendation

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to
this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
United States District Court for the Western District of Washington
Notice of Electronic Filing
The following transaction was entered on 8/27/2019 at 1:44 PM PDT and filed on 8/27/2019
Alverto v. Cline et al
Case Name:
3:19-cv-05053-RBL
Case Number:
Filer:
Document Number: 22
Docket Text:
ORDER ADOPTING REPORT AND RECOMMENDATION re [18] GRANTING Defendants' Motion
to Dismiss [12]; Plaintiffs federal claims are DISMISSED with prejudice; the Court declines to
exercise supplemental jurisdiction to the remaining state law claims and those claims are
DISMISSED without prejudice; this case is closed; Plaintiff is granted in forma pauperis status
if he appeals; signed by Judge Ronald B. Leighton. **2 PAGE(S), PRINT ALL**(Jerome Alverto,
Prisoner ID: 322854)(DN)

3:19-cv-05053-RBL Notice has been electronically mailed to:
Daniel R. Hamilton dhamilt@co.pierce.wa.us, glane@co.pierce.wa.us, nbritta@co.pierce.wa.us,
pcpatvecf@co.pierce.wa.us
Jerome Ceasar Alverto

docmccinmatefederal@DOC 1 .WA.GOV

3:19-cv-05053-RBL Notice will not be electronically mailed to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1035929271 [Date=8/27/2019] [FileNumber=7715191-0
l

Case 3:19-cv-05053-RBL Document 22 Filed 08/27/19 Page 1 of 2

1
2
3
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

4
5
6

JEROME CEASAR ALVERTO
Case No. C19-5053-RBL-TLF

7

Plaintiff,

9

ORDER ADOPTING REPORT AND
RECOMMENDATION

v.

8

BRYAN DWAIN CLINE,
Defendants.

10
11

THIS MATTER is before the Court on Magistrate Judge Fricke’s Report and

12

Recommendation [Dkt. # 18], and the Plaintiffs Objection [Dkt. #19], recommending that the

13

Court grant defendant’s motion to dismiss [Dkt. #12],

14

(1)

The Court adopts the Report and Recommendation;

15

(2)

Defendants’ motion to dismiss [Dkt. #12] is GRANTED; and

16

(3)

Plaintiffs federal claims are DISMISSED with prejudice; and

17

(4)

The Court DECLINES to exercise supplemental jurisdiction with respect to plaintiffs

18

remaining state law claims and those claims are DISMISSED without prejudice; and

19

(5)

As all claims have been dismissed from the action, the case should be closed; and

20

(6)

As plaintiff has been granted in forma pauperis, in forma pauperis may continue on

21

appeal. See Rule of Appellate Procedure 24(a)(3); and

22
23
24
25
ORDER ADOPTING REPORT AND
RECOMMENDATION -1

Case 3:19-cv-05053-RBL Document 22 Filed 08/27/19 Page 2 of 2

1
2
3
4

(7)

The Clerk is directed to send copies of this Order to plaintiff, to Magistrate Judge
Fricke, and to any other party that has appeared in this action.

IT IS SO ORDERED.
Dated this 27th day of August, 2019.

5
6
7
Ronald B. Leighton
United States District Judge

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
ORDER ADOPTING REPORT AND
RECOMMENDATION - 2

DOC MCC Inmate Federal
ECF@wawd.uscourts.gov
Thursday, August 29, 2019 8:51 AM
ECF@wawd.uscourts.gov
Activity in Case 3:19-cv-05053-RBL Alverto v. Cline et al Judgment by Court

From:

Sent:
To:

Subject:

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to
this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one free electronic copy of
all documents filed electronically, if receipt is required by law or directed by the filer. PACER access fees
apply to all other users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30 page limit do not
apply.
U.S. District Court
United States District Court for the Western District of Washington
Notice of Electronic Filing
The followingxtransaction was entered on 8/29/2019 at 8:51 AM PDT and filed on 8/29/2019
Alverto v. Cline et al
Case Name:
Case Number:
3:19-cv-05053-RBL
Filer:
WARNING: CASE CLOSED on 08/29/2019
Document Number: 23
Docket Text:
JUDGMENT BY COURT. **1 PAGE(S), PRINT ALL**(Jerome Alverto, Prisoner ID: 322854)(GMR)

3:19-cv-05053-RBL Notice has been electronically mailed to:
Daniel R. Hamilton dhamilt@co.pierce.wa.us, glahe@co.pierce.wa.us, nbritta@co.pierce.wa.us,
pcpatvecf@co.pierce.wa.us
Jerome Ceasar Alverto

docmccinmatefederal@DOCl .WA.GOV

3:19-cv-05053-RBL Notice will not be electronically mailed to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1035929271 [Date=8/29/2019] [FileNumber=7717543-0
l

Case 3:19-cv-05053-RBL Document 23 Filed 08/29/19 Page 1 of 1
.

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

JUDGMENT IN A CIVIL CASE

JEROME CEASAR ALVERTO,
Plaintiff,

CASE NO. C19-5053-RBL-TLF

v.
BRYAN DWAIN CLINE,
Defendant.
I I

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.

13

Decision by Court. This action came to consideration before the Court. The issues have
been considered and a decision has been rendered.

THE COURT HAS ORDERED THAT:
The Report and Recommendation is adopted and approved. Defendant’s motion to
dismiss [Dkt. 12] is GRANTED. Plaintiffs federal claims are DISMISSED with prejudice. The
Court declines to exercise supplemental jurisdiction over plaintiffs remaining state law claims
and those claims are DISMISSED without prejudice. As all claims have been dismissed from the
action, the case should be closed. Plaintiff may continue in forma pauperis on appeal.
Dated this 29th day of August, 2019.

William M, McCool
Clerk of Court
/s Gayle M. Riekena
Deputy Clerk

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page lot 12

1
2
3
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

4
5
6

JEROME CEASAR ALVERTO,
Case No. Cl9-5053 RBL-TLF

7
8
9

Plaintiff,
BRYAN DWAIN CLINE,
NOTED: August 9, 2019
Defendant.

10
11

REPORT AND
RECOMMENDATION

v.

Plaintiff Jerome Ceasar Alverto proceeds pro se and in forma pauperis in this civil rights

12

action pursuant to 42 U.S.C. § 1983. Dkt. 7, Amended Complaint. In his Amended Complaint,

13

plaintiff alleges defendant Bryan Dwain Cline, a former law enforcement officer with the Pierce

14

County Sherriff s Department (PCSD), used excessive force against him during the course of

15

plaintiffs arrest. Id. at

16

actions violated his Fourth, Eighth, and Fourteenth Amendment rights under the United States

17

Constitution, Article I, Section 3 and 14 of the Washington Constitution, and Washington State

18

negligence laws. Dkt. 7, f 22.

19

8-11 and Exhibit 1,

23-26. Plaintiff alleges defendant Cline’s

This matter comes before the Court on defendant’s Motion to Dismiss plaintiffs

20

Amended Complaint for failure to state a claim. Dkt. 12. For the reasons discussed below, the

21

Court should grant defendant’s Motion to Dismiss.

22
23

FACTUAL AND PROCEDURAL HISTORY
Plaintiff commenced the instant action on January 17, 2019, alleging numerous claims

24
25
REPORT AND RECOMMENDATION- 1

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 2 of 12

1

against various defendants including a claim against defendant Cline for excessive use of force

2

during the course of plaintiffs arrest. Dkt. 1. On March 5, 2019, the Court issued an order citing

3

various deficiencies with the other claims in plaintiffs complaint and directing plaintiff to file an

4

amended complaint to cure those deficiencies or show cause why those claims should not be

5

dismissed. Dkt. 6. Plaintiff subsequently filed an Amended Complaint naming defendant Cline

6

as the sole defendant and raising only his claims related to excessive force.1 Dkt. 7.

7

Plaintiffs Amended Complaint alleges that on May 13, 2006, during the course of

8

plaintiffs arrest, defendant Cline used excessive physical force and racial epithets, pointed a gun

9

to plaintiffs head and threatened to kill him. Id. at

9, 11. Plaintiff contends he made a “good

10

faith effort” to report defendant Cline’s behavior and claims to have filed a complaint with the

11

Pierce County Prosecutor’s Office through the Pierce County Jail reporting system shortly after

12

his arrest in May 2006. Id. at Exhibit 1, H 49.
Plaintiff contends he delayed filing this claim until now (nearly thirteen years later)

13
14

because his defense attorney told him that his family’s safety could not be guaranteed and

15

“police would target [plaintiffs] family with retaliation if [plaintiff] testified in his own defense;

16

specifically, if he testified against defendant Cline’s criminal acts.” Id. at Amended Complaint, ^

17

15.
Defendant moves to dismiss plaintiffs civil rights claim under 42 U.S.C. § 1983 and

18
19

Washington State negligence claim and argues the entire amended complaint is barred by the

20

i

21
22
23
24

The Court notes that plaintiff attaches a declaration as an exhibit to his Amended Complaint in which he also
mentions some of the allegations raised in his original complaint, including that defendant Cline transferred blood
onto the plaintiffs clothing, conducted an illegal search of the plaintiffs house, and placed evidence linking
plaintiff to a crime in his home and vehicle. Dkt. 7, Exhibit 1, 31,44-48. In the Court’s prior order addressing
plaintiffs original complaint, plaintiff was informed that if he wished to proceed with these particular claims he
must show cause or file an amended complaint demonstrating why these claims should not be dismissed as barred
by Heck v. Humphrey, 512 U.S. All (1994). Dkt. 6. Plaintiff did not include these allegations in his Amended
Complaint and, as such, the Court will consider these allegations as mentioned in plaintiffs declaration only as
background information. Dkt. 7.

25
REPORT AND RECOMMENDATION- 2

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 3 of 12

1

statute of limitations. Dkt. 12. Defendant contends that the plaintiffs generalized and conclusory

2

assertions of concern for the safety of his family are insufficient to establish equitable tolling. Id.

3

Defendant also moves to dismiss plaintiffs claims under the Washington State Constitution on

4

the grounds that they are not cognizable. Id.

5

Plaintiff opposed defendant’s motion citing the alleged warning from his defense

6

attorney. Dkt. 14. Plaintiff contends that, based on this warning, he believed police would locate

7

his family and harm them; feared that, as a person of color, police may commit additional acts of

8

violence against him; and determined he had no choice but to refrain from bringing this

9

complaint. Dkt. 14, p. 2.

10

Plaintiff acknowledges that on August 8, 2008, defendant Cline testified he had been

11

placed on administrative leave and noted his doctor determined “he [could not] function in law

12

enforcement anymore” and there was no possibility he could “retain [his] job as a deputy.” Dkt.

13

12, Motion to Dismiss, p. 3; Dkt. 14, Plaintiffs Response, p. 4. However, plaintiff contends that

14

defendant Cline’s continued employment in law enforcement, notwithstanding Cline’s

15

administrative leave, constituted a persistent threat to his family’s safety. Dkt. 14, p. 4.

16

Plaintiff also states that he recently discovered that defendant Cline was no longer

17

employed as a law enforcement officer. Dkt. 7, Amended Complaint at K 16, Exhibit 1 at f 57.

18

Plaintiff states that he is bringing this claim now because he believes it is safe to “come forward

19

and report” defendant Cline’s conduct. Id.

20

21
22

STANDARD OF REVIEW
The Court may grant a motion to dismiss under Rule 12(b)(6) of the Federal Rules of
Civil Procedure only if the complaint, with all factual allegations accepted as true, fails to “raise

23
24
25
REPORT AND RECOMMENDATION- 3

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 4 of 12

1

a right to relief above the speculative level.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 545

2

(2007).

3
4
5
6
7
8

To survive a motion to dismiss, a complaint must contain sufficient factual matter,
accepted as true, to “state a claim to relief that is plausible on its face.” A claim
has facial plausibility when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the
misconduct alleged. The plausibility standard is not akin to a probability
requirement, but it asks for more than a sheer possibility that a defendant has
acted unlawfully.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) {quoting Twombly, 550 U.S. at 556, 570).
The complaint must contain a “short and plain statement of the claim showing that the

9

pleader is entitled to relief.” FRCP 8(a)(2). “Specific facts are not necessary; the statement need

10

only give the defendant fair notice of what the . . . claim is and the grounds upon which it rests.”

11

Erickson v. Pardus, etal., 551 U.S. 89, 93 (2007) (internal citations omitted). However, the

12

pleading must be more than an “unadorned, the-defendant-unlawfully-harmed-me accusation.”

13

Iqbal, 556 U.S. at 678. Although the Court must accept all the allegations in a complaint as true,

14

the Court does not have to accept a “legal conclusion couched as a factual allegation.” Id.

15

“Threadbare recitals of the elements of a cause of action, supported by mere conclusory

16

statements, do not suffice.” Id.

17

To state a claim under 42 U.S.C. § 1983, a complaint must allege: (a) the conduct

18

complained of was committed by a person acting under color of state law, and (b) the conduct

19

deprived a person of a right, privilege, or immunity secured by the Constitution or laws of the

20

United States. See Parratt v. Taylor, 451 U.S. 527, 535 (1981), overruled on other grounds,

21

Daniels v. Williams, 474 U.S. 327 (1986). Section 1983 is the appropriate avenue to remedy an

22

alleged wrong only if both of these elements are present. See Haygood v. Younger, 769 F.2d

23

1350, 1354 (9th Cir. 1985).

24
25
REPORT AND RECOMMENDATION- 4

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 5 of 12

1

A pro se complaint must be interpreted liberally. Sause v. Bauer, — U.S. —, 138 S. Ct.

2

2561, 2563 (2018). But the Court “may not supply essential elements of the claim that were not

3

initially pled.” Pena v. Gardner, 976 F.2d 469, 471 (9th Cir. 1992). A pro se complaint may be

4

dismissed “if it appears beyond doubt that the plaintiff can prove no set of facts in support of his

5

claim which would entitle him to relief.” Mangiaracina v. Penzone, 849 F.3d 1191, 1195 (9th

6

Cir. 2017).

7

Generally, district courts may not consider material outside the pleadings when assessing

8

the sufficiency of a complaint under Rule 12(b)(6). Khoja v. Orexigen Therapeutics, Inc., 899

9

F.3d 988, 998 (9th Cir. 2018) (citing Lee v. City ofLos Angeles, 250 F.3d 668, 688 (9th Cir.

10

2001)). When matters outside the pleadings are presented and not excluded by the court, the

11

motion should be treated as a motion for summary judgment governed by Rule 56. Fed. R. Civ.

12

P. 12(b).

13

However, a motion to dismiss need not be converted to a motion for summary judgment

14

when matters outside the pleadings are introduced if the court does not rely on the outside

15

material in reaching its decision. Keams v. Tempe Technical Inst., 110 F.3d 44, 46 (9th Cir.

16

1997); see Elvig v. Calvin Presbyterian Church, 375 F.3d 951, n.l (9th Cir. 2004) (district court

17

did not rely on evidence outside the scope of the pleadings in dismissing the complaint and

18

therefore the Court disregards those materials and treats the district court order as a judgment on

19

the pleadings); Velasquez v. Arizona Charlie, Inc., 56 F. App’x 347, 348 (9th Cir. 2004) (mem.)

20

(“Because the district court did not rely on materials outside the pleadings in ruling on the

21

motion to dismiss, the district court did not abuse its discretion by not converting the Rule

22

12(b)(6) motion into a motion for summary judgment.”).

23
24
25
REPORT AND RECOMMENDATION- 5

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 6 of 12

1

Rule 12(b)(6) specifically gives courts the discretion to accept and consider extrinsic

2

materials and to convert the motion to one for summary judgment. Davis v. HSBC Bank Nevada,

3

N.A., 691 F.3d 1152, 1159 (9th Cir. 2012) (citing Hamilton Materials, Inc. v. Dow Chemical

4

Corp., 494 F.3d 1203, 1207 (9th Cir. 2007)). Here, the court does not consider the various

5

exhibits and appendices attached to the defendant’s Motion to Dismiss, the plaintiffs Response,

6

and the defendant’s Reply in order to reach its decision on the defendant’s Motion to Dismiss.

7

Therefore, the court exercises its discretion and excludes those documents from review.
Although the running of a statute-of-limitations is an affirmative defense, a defendant

8

9

may move to dismiss based on the defense if the running of the limitations period is apparent on

10

the face of the complaint. See Jahlon v. Dean Witter & Co., 614 F.2d 677, 682 (9th Cir. 1980)

11

(“[i]f the running of the statute is apparent on the face of the complaint, the defense may be

12

raised by a motion to dismiss”). “When a motion to dismiss is based on the running of the statute

13

of limitations, it can be granted only if the assertions of the complaint, read with the required

14

liberality, would not permit the plaintiff to prove that the statute was tolled.” Id. See e.g. Rengo

15

v. Cobane, 2013 WL 5913371 (W.D. Wash. Nov. 4, 2013) (granting motion to dismiss § 1983

16

claims as time-barred when plaintiff failed to put forth any evidence of defendants' bad faith or

17

deception that would compel the court to apply equitable tolling); Wilson v. Lehman, 2005 WL

18

1802420 (W.D. Wash. July 27, 2005) (granting motion to dismiss), affd 224 F. App'x 707, 708

19

(9th Cir. 2007) (mem.) ("The district court properly dismissed Wilson's action because he did not

20

present any valid basis for equitable tolling.").

21
22

DISCUSSION
A.

Statute of Limitations

23
24
25
REPORT AND RECOMMENDATION- 6

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 7 of 12

The Civil Rights Act, 42 U.S.C. § 1983, does not contain a statute of limitations. Federal

1
2

courts adopt the applicable limitation period under state law governing recovery of damages for

3

personal injury claims. Wilson v. Garcia, 471 U.S. 261, 267 (1985). For claims brought under §

4

1983 in the State of Washington, a three-year limitation period applies under Revised Code of

5

Washington 4.16.080. Robinson v. Seattle, 119 Wn.2d 34, 86, 830 P.2d 318, 347 (Wash. 1992),

6

cert, denied 506 U.S. 1028 (1992).

7

Plaintiff initiated this action on January 17, 2019. Dkt. 1. Therefore, to be within the

8

three-year limitation period, the events giving rise to the § 1983 claim in the complaint must

9

have occurred on or after January 17,2016.

10

The plaintiffs arrest, during which defendant Cline allegedly used excessive force,

11

occurred on May 13, 2006, and the plaintiff had actual notice of the facts under which he is

12

bringing his § 1983 claim on that date. Dkt. 7, fflj 8-10. Therefore, the statute of limitations

13

expired three years later, on May 16, 2009, nearly ten years before this action was filed.

14

Consequently, plaintiffs § 1983 claim is time-barred unless plaintiff can show he is entitled to

15

equitable tolling.

16

B.

Equitable Tolling

17

Federal courts apply the forum state’s law regarding equitable tolling for actions arising

18

under 42 U.S.C. § 1983. Jones v. R.R. Donnelley & Sons, Co., 541 U.S. 369, 377-78 (2004). In

19

Washington State, equitable tolling is applied “sparingly.” Trotzer v. Vig, 149 Wn. App. 594,

20

607, 203 P.3d 1056, 1062 (Wash. Ct. App. 2009). In Washington, equitable tolling is permitted

21

when justice requires and where the predicates for equitable tolling are met. In re Bonds, 165

22

Wn.2d 135, 141, 196 P.3d 672, 676 (Wash. 2008) (citing Millay v. Cam, 135 Wn.2d 193, 955

23

P.2d 791 (Wash. 1998)). The predicates for equitable tolling are (1) bad faith, deception, or false

24

25
REPORT AND RECOMMENDATION- 7

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 8 of 12

1

assurances by the defendant and (2) the exercise of diligence by the plaintiff. Id.. The defendant’s

2

actions must have “induced plaintiff to delay commencing suit until the applicable statute of

3

limitations has expired.” Brandt v. Lehman, 2008 WL 714099 (W.D. Wash. March 14, 2008).

4

The party asserting that equitable tolling applies bears the burden of proof. Nickum v. City of

5

Bainbridge Island, 153 Wn. App. 366, 379, 223 P.3d 1172, 1178 (2009).

6

Here, even under a liberal construction, the plaintiff fails to demonstrate his § 1983 claim

7

is eligible for equitable tolling. The plaintiff does not allege “bad faith, false assurances, or

8

deception by the defendant.” Millay v. Cam, 135 Wn.2d 193, 955 P.2d 791 (Wash. 1998).

9

Plaintiff does not assert that defendant Cline himself made threats to the plaintiff’s family, and

10

describes a generalized warning from his attorney that the police would retaliate against the

11

plaintiff if he testified in his own defense or about defendant Cline’s conduct. Dkt. 7, Amended

12

Complaint at ^ 15.

13

The plaintiff provides no insight into what information formed the basis of his attorney’s

14

generalized warning, and the plaintiff does not allege any specific facts showing defendant Cline,

15

through bad faith, false assurances, or deception, induced the plaintiff to delay commencing his

16

suit until now. The plaintiff only alleges defendant Cline “should have known” he violated the

17

plaintiffs rights. Dkt. 7, Amended Complaint,

18

17.

In Washington, equitable tolling is also allowed “when justice requires,” and “equitable

19

tolling is appropriate when consistent with both the purpose of the statute providing the cause of

20

action and the purpose of the statute of limitations.” Millay v. Cam, 135 Wn.2d 193, 206, 955

21

P.2d 791, 797 (Wash. 1998) (quoting Douchette v. Bethel Sch. Dist. No. 403, 117 Wn.2d 805,

22

812 (Wash. 1995)).

23
24
25
REPORT AND RECOMMENDATION- 8

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 9 of 12

1

Washington courts have found that “justice requires” equitable tolling in limited

2

instances, including where the plaintiff failed to file within the limitations period due to

3

procedural deficiencies that were not caused by the plaintiff. However, this is a rare

4

circumstance. E.g., Hahn v. Waddington, 694 F. App’x 494 (9th Cir. 2017) (finding that because

5

the district court erred by dismissing instead of transferring venue to district where remaining

6

defendants resided, and by the time plaintiff received notice of dismissal, statute of limitations

7

had expired, plaintiff entitled to equitable tolling if he exercised due diligence); In re Bonds, 165

8

Wn.2d. 135, 144, 196 P.3d 672, 676-77 (Wash. 2008) (refusing to apply equitable tolling when

9

plaintiff alleged the court’s inaction in reviewing the merits of his petition made a public trial

10
11

issue undiscoverable until after limitations period had run).
Plaintiff does not present any facts indicating that “justice requires” tolling the statute of

12

limitations for a claim brought nearly a decade after the limitations period expired. Plaintiff

13

makes a conclusory argument that his attorney warned him that he or his family might be

14

retaliated against by the police if he brought a claim against defendant Cline. However, plaintiff

15

offers nothing beyond his conclusory assertion to support this claim.

16

In sum, plaintiffs generalized claim of the possibility of police retaliation fails to present

17

a valid basis for equitable tolling. Granting equitable tolling in instances where a conclusory

18

allegation of a generalized threat is the basis for delaying the commencement of an action would

19

extend equitable tolling beyond “the narrowest of circumstances and where justice requires.” In

20

re Carter, 172 Wn.2d. 917, 929, 263 P.3d 1241, 1248 (Wash. 2011) (en banc); see Bell Atlantic '

21

Corp. v. Twombly, 550 U.S. 544, 545 (2007) (motion to dismiss should be granted where

22

allegations of complaint fail to “raise a right to relief above the speculative level.”).

23
24
25
REPORT AND RECOMMENDATION- 9

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 10 of 12

1

Therefore, the plaintiff is not entitled to equitable tolling because he has failed to allege

2

any facts indicating “bad faith, false assurances, or deception by the defendant” that caused

3

plaintiff to miss filing within the limitations period, nor does plaintiff allege any facts indicating

4

“justice requires” equitable tolling. Because plaintiff has not satisfied the first requirement for

5

equitable tolling, the Court does not consider the second requirement of due diligence by the

6

plaintiff. Accordingly, the Court should grant defendant’s Motion to Dismiss plaintiffs § 1983

7

claim and dismiss that claim with prejudice.

8

C.

9

Plaintiffs State Law Claims
In addition to his § 1983 claim, plaintiff also asserts defendant Cline violated Article I,

10

Section 3 and 14 of the Washington Constitution, and Washington State negligence laws. Dkt. 7,

11

K 22. A district court has discretion over whether to exercise supplemental jurisdiction over state

12

law claims arising from the same set of operative facts that supports a federal claim. See

13

Carlsbad Tech., Inc. v. HIFBio, Inc., 556 U.S. 635, 639-40 (2009) (citing 28 U.S.C. §§ 1367(a),

14

(c)). Ordinarily, when a district court dismisses “all claims independently qualifying for the

15

exercise of federal jurisdiction,” it will dismiss all related state claims, as well. Artis v. District of

16

Columbia, 138 S.Ct. 594 (2018) (citing 28 U.S.C. § 1367(c)) (2018).

17

Although the court is not required to dismiss the supplemental state law claims, “in the

18

usual case in which all federal-law claims are eliminated before trial, the balance of factors to be

19

considered under the pendent jurisdiction doctrine—judicial economy, fairness, convenience,

20

and comity—will point toward declining to exercise jurisdiction over the remaining state-law

21

claims.” Carnegie-Mellon Univ. v. Cohill, 484 U.S. 343, 350 n.7 (1988).

22
23

Here, the plaintiffs federal claim is time-barred by the statute of limitations. Upon
dismissal of that claim, there are no remaining federal issues for this Court to decide. Therefore,

24
25
REPORT AND RECOMMENDATION- 10

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 11 of 12

1

the Court recommends declining to exercise jurisdiction over the state law claims and dismissing

2

them without prejudice. However, the Court notes, without deciding, that the plaintiffs state law

3

negligence claim would likely be time-barred by the same analysis set forth above. See

4

discussion supra at p. 6-10.

5

D.

Leave to Amend

6

A district court should not dismiss a pro se complaint without leave to amend unless “it is

7

absolutely clear that the deficiencies of the complaint could not be cured by amendment.” Akhtar

8

v. Mesa, 698 F.3d 1202, 1212 (9th Cir. 2012) (quoting Schucker v. Rockwood, 846 F.2d 1202,

9

1203-04 (9th Cir. 1988) (per curiam) (internal quotation marks omitted). Leave to amend may be

10

denied, even if prior to a responsive pleading, if amendment of the complaint would be futile.

11

Albrecht v. Lund, 845 F.2d 193, 195 (9th Cir. 1988) (citing Schreiber Distributing Co. v. Serv-

12

Well Furniture Co., 806 F.2d 1393, 1401 (9th Cir. 1986)). See e.g., Deutsch v. Turner Corp., 324

13

F.3d 692, 717-18 (9th Cir. 2003) (upholding denial of leave to amend on the basis of futility

14

where the plaintiffs proffered facts to the district court that were insufficient to support tolling

15

and failed to offer additional facts on appeal).

16

Here, the plaintiff had an opportunity to amend his complaint before it was served on the

17

defendant. Dkt. 6. Neither the amended complaint nor the plaintiffs response to the defendant’s

18

motion to dismiss allege that the defendant himself, through bad faith, deception, or false

19

assurances, induced the plaintiff to delay bringing this action. Dkts. 7, 14. It appears the plaintiff

20

is unable to remedy the deficiencies in the amended complaint and further amendment would be

21

futile. Therefore, leave to amend should be denied.

22

CONCLUSION

23
24
25
REPORT AND RECOMMENDATION- 11

Case 3:19-cv-05053-RBL Document 18 Filed 07/22/19 Page 12 of 12

1

For the above reasons, the undersigned recommends the Court grant the defendant’s

2

Motion to Dismiss regarding plaintiffs federal claim with prejudice as barred by the statute of

3

limitations. Dkt. 12. The undersigned also recommends the Court decline to exercise

4

supplemental jurisdiction over the remaining state law claims alleged against defendant Cline

5

and dismiss those claims without prejudice.

6

The parties have fourteen (14) days from service of this Report and Recommendation to

7

file written objections thereto. 28 U.S.C. § 636(b)(1); FRCP 6; FRCP 72(b). Failure to file

8

objections will result in a waiver of those objections for purposes of appeal. Thomas v. Arn, 474

9

U.S. 140 (1985). Accommodating the time limit imposed by Fed. R. Civ. P. 72(b), the Clerk is

10
11

directed set this matter for consideration on August 9, 2019, as noted in the caption.
Dated this 22nd day of July, 2019.

12
13
r~\

14

Theresa L. Fricke
United States Magistrate Judge

15
16
17
18
19
20
21
22
23
24
25
REPORT AND RECOMMENDATION- 12

Case 3:19-cv-05053-RBL Document 18-1 Filed 07/22/19

Page 1 of 2

1
2
3

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

4
5

6

JEROME CEASAR ALVERTO,
Case No. C19-5053-RBL-TLF

7

Plaintiff,

9

ORDER ADOPTING REPORT AND
RECOMMENDATION

v.

8

BRYAN DWAIN CLINE,
Defendants.

10
11

THIS MATTER is before the Court on Magistrate Judge Fricke’s Report and

12

Recommendation [Diet. #__ ], recommending that the Court grant defendant’s motion to

13

dismiss [Dkt. #12].

14

(1)

The Court adopts the Report and Recommendation;

15

(2)

Defendants’ motion to dismiss [Dkt. #12] is GRANTED; and

16

(3)

Plaintiffs federal claims are DISMISSED with prejudice; and

17

(4)

The Court declines to exercise supplemental jurisdiction with respect to plaintiffs
remaining state law claims and those claims are DISMISSED without prejudice; and

18
19

(5)

As all claims have been dismissed from the action, the case should be closed; and

20

(6)

As plaintiff has been granted in forma pauperis, in forma pauperis may continue on

21
22
23

appeal. See Rule of Appellate Procedure 24(a)(3); and
(7)

The Clerk is directed to send copies of this Order to plaintiff, to Magistrate Judge
Fricke, and to any other party that has appeared in this action.

24
25
ORDER ADOPTING REPORT AND
RECOMMENDATION - 1

Case 3:19-cv-05053-RBL Document 18-1 Filed 07/22/19 Page 2 of 2

1
2

IT IS SO ORDERED.
Dated this

day of

2019.

3
4
Ronald B. Leighton
United States District Judge

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
ORDER ADOPTING REPORT AND
RECOMMENDATION - 2

Case 3:19-cv-05053-RBL Document 18-2 Filed 07/22/19 Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

JEROME CEASAR ALVERTO,
Plaintiff,

JUDGMENT IN A CIVIL CASE
CASE NO. C19-5053-RBL-TLF

v.

BRYAN DWAIN CLINE,
Defendant.
I I

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.
Decision by Court. This action came to consideration before the Court. The issues have
been considered and a decision has been rendered.

THE COURT HAS ORDERED THAT:
The Report and Recommendation is adopted and approved. Defendant’s motion to
dismiss [Dkt. 12] is GRANTED. Plaintiffs federal claims are DISMISSED with prejudice. The
Court declines to exercise supplemental jurisdiction over plaintiff s remaining state law claims
and those claims are DISMISSED without prejudice. As all claims have been dismissed from the
action, the case should be closed. Plaintiff may continue in forma pauperis on appeal.
Dated this__day of [Pick the date].

William M. McCool
Clerk of Court

Deputy Clerk

